audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grants to the Palestine, Arkansas, Police Department
GR-80-00-008
January 28, 2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of a grant awarded by the Office of Community Oriented Policing Services to the Palestine Police Department (Palestine).  The purpose of the grant is to enhance community policing.  Palestine was awarded a total of $254,802 to hire four new police officers.
	
	We reviewed Palestine's compliance with seven essential grant conditions.  We found the grantee's community policing practices to be acceptable.  However, we found weaknesses in six other areas as identified below.  As a result, we question $90,683 and recommend an additional $32,175 be put to better use. 

The grantee budgeted for a decrease in the number of locally funded police officers in 1998.  In addition, total dollars budgeted for law enforcement decreased in both 1995 and 1998.

	The required number of total on-board officers was not maintained during the grant period we reviewed.  Beginning in May 1996, the grantee consistently maintained one locally funded police officer, rather than the required level of two locally funded full time police officers.

	Our testing indicated that the local match came from funds that were already budgeted for local law enforcement.
	
	Grantee reimbursement requests contained unallowable costs for officer salaries and fringe benefits.  

	While it appears that Palestine intends to retain the officers funded under the hiring grant, they did not have an acceptable strategy for retaining them upon the grant's conclusion.  No specific funding source had been identified to retain the officers.

	Several status reports were either not accurate, not timely, or not filed.  
These items are discussed in greater detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.